January 20, 2009

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Postal Service Officers’ Travel and Representation
         Expenses for Fiscal Year 2008 (Report Number FT-AR-09-006)

This report presents the results of our audit of the U.S. Postal Service officers’ travel
and representation expenses for fiscal year (FY) 2008 (Project Number
08BG002FT000). We conducted the audit in response to the Board of Governors’
policies and procedures requiring annual audits of officers’ travel and representation
expenses.1 This audit addresses financial risk. See Appendix A for additional
information about this audit.

Conclusion

Based on the sample and census results, officers’ travel and representation expenses
totaling approximately $1.2 million were generally supported.2 However, officers did not
always comply with Postal Service Officers’ Travel and Representation Expense
Guidelines3 (Guidelines) when claiming expenses incurred during official travel and for
representation.

Travel and Representation Expense Reimbursement Deviations

Officers did not always conduct their travel or request reimbursement in accordance
with Postal Service Guidelines. For example:

    •   Written preauthorizations were not always obtained for domestic first-class
        airfare or attendance of spouses at official events.
    •   Spousal expenses were sometimes claimed in the eTravel System (eTravel)
        rather than being forwarded manually to Corporate Accounting to be processed
        as taxable income.


1
  Representation expenses normally involve one or more non-Postal Service employees (for example, suppliers,
customers, and foreign postal administrators) and a Postal Service officer.
2
  We reviewed 169 reimbursements out of a universe of 958, including 119 from a random sample and 50 from a
census stratum. We found four deviations from the Guidelines. See Appendix C for more information on our
statistical sampling methodology and projected results.
3
  Issued by the Postmaster General on September 13, 2006.
Postal Service Officers’ Travel and Representation                   FT-AR-09-006
 Expenses for Fiscal Year 2008


    •   The government travel card was not always used for hotel, airfare, and
        representation expenses.
    •   Claims for travel and representation reimbursement were not always submitted in
        a timely manner.

A memorandum from the Postmaster General, dated September 13, 2006, notified
officers that the Guidelines had been updated and included a copy of the new
Guidelines. In addition, the Vice President, Controller, stated that she presented the
updated Guidelines to officers at their December 2006 meeting and highlighted the
changes. Further, after we completed our fieldwork, management stated they initiated
training for the Guidelines. However, we did not receive any further information about
this training, including timeframes and attendees.

When employees do not follow guidance, the Postal Service is at increased risk that
errors or omissions may occur and not be detected. Furthermore, employees could
improperly accrue personal benefits and rewards or conceal details of unauthorized
purchases. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Controller:

1. Direct the Manager, Corporate Accounting, to provide officers and their assistants
   with refresher training on the Postal Service Officers’ Travel and Representation
   Expense Guidelines.

Management’s Comments

Management agreed with our recommendation and made training on the Guidelines a
goal for FY 2009. Management agreed to provide refresher training to applicable
officers and their secretaries on a case-by-case basis and provide an overall class to all
secretaries in Quarter 2 of FY 2009. Topics will include addressing travel and
representation expense reimbursement deviations described in this report. See
Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendation and corrective actions should resolve the
issues identified in the report.

OBSERVATION

We identified an issue that was not material to the overall travel and representation
expenses and did not affect the overall adequacy of internal controls. We offer this
information to assist with the management and control of these expenditures.




                                                     2
Postal Service Officers’ Travel and Representation                                         FT-AR-09-006
 Expenses for Fiscal Year 2008


Expenses for seven travel reimbursements were incorrectly categorized in eTravel.
This occurred because claimants did not select the proper expense category from the
drop-down list in eTravel. For example, travel agents’ fees appeared as airfare
expenses, and meal expenses appeared as officers’ expenses.4 When expenses are
not categorized correctly, Postal Service officials monitoring travel and representation
expenses may misinterpret how Postal Service funds are used. When we discussed
this issue with Postal Service management, they provided a list of expense
classifications to the officers’ and area vice presidents’ assistants and emphasized the
importance of correctly categorizing expenses. We will continue to monitor this issue as
part of our ongoing oversight of officers’ travel and representation expenses.

PROGRESS ON PRIOR YEAR OBSERVATIONS

Our audit report, Postal Service Officers’ Travel and Representation Expenses for Fiscal
Year 2007,5 identified an opportunity to strengthen the Guidelines. We noted that
officers may claim reimbursements of refreshment expenses related to group
recognition events. However, the Guidelines neither specified a dollar limit nor defined
what type of refreshments were allowable. On September 10, 2008, the Postal Service
issued Management Instruction FM-640-2008-1, Expenses for Internal and External
Events, which defined types of refreshments and set dollar limits for meals. Therefore,
we consider this recommendation closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:      H. Glen Walker
         Julie S. Moore
         Vincent H. DeVito, Jr.
         Stephen J. Nickerson
         Katherine S. Banks

4
  An expense is classified as an officer’s expense when local employees participate in official business meetings with
officers in a travel status, and the local employees are not reimbursed for these costs.
5
  Report Number FT-AR-08-004, dated December 20, 2007.




                                                          3
Postal Service Officers’ Travel and Representation                                  FT-AR-09-006
 Expenses for Fiscal Year 2008


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. As part of these audits, the Board of Governors
adopted policies and procedures that require annual audits of officers’ travel and
representation expenses.

Postal Service officers shape the strategic direction of the Postal Service by setting
goals, targets, and indicators within the framework established by the Postal Service
Board of Governors. Their positions are classified as Postal Career Executive Service II
and include the Postmaster General, the Deputy Postmaster General, and all Vice
Presidents. The Board of Governors has authorized 50 Postal Service officer positions.

Postal Service officers are reimbursed for actual expenses incurred on official travel.
They are also reimbursed for representation expenses incurred with customer, industry,
or employee groups with whom the Postal Service conducts official business. Postal
Service policy requires officers to claim reimbursement for all travel and representation
expenses through eTravel.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether travel and representation expenses
claimed by Postal Service officers were properly supported and complied with Postal
Service policies and procedures.6 To accomplish our objective, we reviewed
169 reimbursements from a universe of 958, including 119 from a random sample and
50 from a census stratum.7 The universe of reimbursements was from October 1, 2007,
through September 30, 2008. In addition, we reviewed one or more reimbursements for
each officer not selected in the original random sample. We conducted our fieldwork
from January through October 2008.

As our criteria in evaluating reported expenses, we used:
• Postal Service Officers’ Travel and Representation Expense Guidelines issued by
   the Postmaster General on September 13, 2006.
• Handbook F-15, Travel and Relocation, dated February 2004, updated with Postal
   Bulletin revisions through December 20, 2007.
• Various management instructions.8


6
  The audit universe was limited to reimbursements processed through eTravel.
7
  See Appendix C for more information on our statistical sampling methodology and projected results.
8
  Management Instructions include: (1) FM-610-2000-2, Compliance With the Prompt Payment Act, dated March 7,
2000; (2) FM-640-2004-1, Government-Issued, Individually Billed Travel Charge Cards, dated June 1, 2004;
(3) FM-640-2001-4, Payment for Meals and Refreshments, dated September 24, 2001; (4) FM-640-2008-1,
Expenses for Internal and External Events, dated September 10, 2008; and (5) FM-640-1999-3, Travel Expense
Charges for Meetings, dated April 9, 1999.




                                                      4
Postal Service Officers’ Travel and Representation                               FT-AR-09-006
 Expenses for Fiscal Year 2008


We conducted this audit from November 2007 through January 2009 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We limited our tests of controls to those
necessary to achieve our audit objective. Our procedures were not designed to provide
assurance on internal controls. Consequently, we do not provide an opinion on such
controls. Also, our audit does not provide absolute assurance of the absence of fraud
or illegal acts due to the nature of evidence and the characteristics of such activities.
Management chose not to meet formally on this report. However, based on discussions
throughout the audit, we included management’s comments where appropriate.

We relied on computer-generated data from the Accounting Data Mart (ADM) and
eTravel. We performed specific internal control and transaction tests on the systems’
data, to include tracing selected information to supporting source records. For example,
we traced all hard copy travel reimbursements through eTravel and ADM.

PRIOR AUDIT COVERAGE

                                   Report            Final Report
        Report Title              Number                 Date                Report Results
   Postal Service Officers’     FT-AR-08-004           12/20/07     See PROGRESS ON PRIOR
   Travel and                                                       YEAR OBSERVATIONS in the
   Representation                                                   body of the report for
   Expenses for Fiscal                                              information.
   Year 2007
   Postal Service Officers’     FT-AR-07-005              12/7/06   Based on the sample results,
   Travel and                                                       travel and representation
   Representation                                                   expenses totaling approximately
   Expenses for Fiscal                                              $1 million incurred by officers of
   Year 2006                                                        the Postal Service for the year
                                                                    ended September 30, 2006, were
                                                                    properly supported and complied
                                                                    with Postal Service policies and
                                                                    procedures. We made no
                                                                    recommendations.
   Postal Service Officers’     FT-AR-06-003          11/16/05      Based on the sample results,
   Travel and                                                       travel and representation
   Representation                                                   expenses totaling $1.3 million,
   Expenses for Fiscal                                              incurred by officers of the Postal
   Year 2005                                                        Service for the fiscal year ended
                                                                    September 30, 2005, were
                                                                    properly supported and complied
                                                                    with Postal Service policies and
                                                                    procedures. We made no
                                                                    recommendations.




                                                      5
Postal Service Officers’ Travel and Representation                                         FT-AR-09-006
 Expenses for Fiscal Year 2008


                  APPENDIX B: TRAVEL REIMBURSEMENT DEVIATIONS

Spouse Attendance at Official Events

An officer did not obtain advance written approval for the attendance of Postal Service
employees’ spouses at an official event. The officers’ expense portion of the travel
reimbursement totaled approximately $747 and included dinner for seven people,
including both spouses. Although not documented in eTravel, management stated the
officer received verbal approval from the Postmaster General.

According to the Guidelines,9 the Postmaster General or Deputy Postmaster General
must authorize the attendance of spouses or guests of officers in writing before an
event, and reimbursements for the expenses of spouses and guests are considered
taxable income.10 Reimbursements for any expenses considered taxable income must
not be entered into eTravel. Instead, manual reports must be completed and sent to
Corporate Accounting for processing.

Domestic First-Class Airfare

An officer did not obtain advance written approval for domestic first-class airfare totaling
approximately $1,305. At the time of our review, a letter authorizing the officer to travel
first-class was not on file.11 Management stated this was a one-time exception for a
medical condition. However, comments in eTravel indicated that the exception was
approved because the airplane was full and seating assignments were limited.

After we completed our fieldwork, Postal Service Corporate Accounting personnel
informed us that management had verbally approved the attendance of spouses at an
official event and the domestic first-class travel upgrade.

Use of Government Travel Card

Officers did not always use the government travel card for hotel, airfare, and
representation expenses.12 This occurred because officers inadvertently used their
personal credit cards or paid cash, or combined personal and official travel, using their
personal credit cards for the entire trip.

When employees do not follow guidance, the Postal Service is at increased risk that
errors or omissions may occur and not be detected. In addition, employees could
improperly accrue personal benefits and rewards or conceal details of unauthorized
purchases.

9
  Page 4, Non-Reimbursable Items, and page 6, Spousal/Guest Expenses.
10
   The cost for the two spouses’ participation in the dinner can be approximated by dividing the rounded dinner cost
by seven people ($100 per person) and multiplying by two spouses ($200). ($700 ÷ 7 = $100; $100 x 2 = $200).
11
   Guidelines, page 1, Deviations, and page 2, Reimbursable Items, Transportation, Air.
12
   Guidelines, page 2, Reimbursable Items.




                                                          6
Postal Service Officers’ Travel and Representation                                   FT-AR-09-006
 Expenses for Fiscal Year 2008


Submission of Travel Reimbursements

Officers did not submit seven travel reimbursement requests in a timely manner.
According to the Guidelines,13 claims for reimbursements must be submitted within
1 month of the event or activity for which reimbursement is sought. The travel
reimbursements were not timely for several reasons.

       •   Four assistants14 were not aware of the importance of submitting travel
           reimbursement requests in a timely manner.

       •   One assistant had to wait to receive the required receipts from hotels and
           restaurants before submitting.

       •   One assistant had to resubmit a request for reimbursement for additional airfare
           because the original reimbursement did not include that amount.

       •   One officer did not have an assistant to complete his reimbursement request at
           the time he needed to submit it.

The table below summarizes the seven reimbursement requests that officers did not
submit in a timely manner.

      Officers’ Travel Reimbursement Requests Not Submitted in a Timely Manner

                                                                              Days
                               Trip Ending Date         Submission Date       Late
                              April 10, 2008            July 31, 2008          82
                              November 18, 2007         January 24, 2008       37
                              March 19, 2008            May 4, 2008            15
                              September 20, 2007        October 26, 2007        6
                              February 21, 2008         March 25, 2008          4
                              April 5, 2008             May 9, 2008             4
                              May 22, 2008              June 26, 2008           4

During our audit, management addressed this issue by e-mailing the officers’ and area
vice presidents’ assistants, emphasizing the importance of timely submission of
requests for travel reimbursement. We will continue to monitor this issue as part of our
ongoing oversight of officers’ travel and representation expenses.




13
     Guidelines, page 1, Approval of Travel Vouchers.
14
     In some cases, assistants complete travel reimbursements for officers.




                                                            7
Postal Service Officers’ Travel and Representation                                           FT-AR-09-006
 Expenses for Fiscal Year 2008


     APPENDIX C: STATISTICAL SAMPLING AND PROJECTIONS FOR OFFICERS’
          TRAVEL AND REPRESENTATION EXPENSE REIMBURSEMENTS

Our audit objective was to determine whether travel and representation expenses
claimed by Postal Service officers were properly supported and complied with Postal
Service policies and procedures. In support of this objective, the audit team employed a
random sample and found the following deviations from the Guidelines.

     •   Written preauthorizations were not obtained for domestic first-class airfare or
         attendance of spouses at an official event.
     •   Spousal expenses were claimed in eTravel rather than being forwarded manually
         to Corporate Accounting to be processed as taxable income.
     •   The government travel card was not used for hotel, airfare, and representation
         expenses.
     •   Claims for travel and representation reimbursement were not submitted in a
         timely manner.

We applied a statistical methodology to divide the universe of 958 into two strata, one
stratum of 50 and the other of 908. The stratum of 50 was a census stratum in which all
of the reimbursements were examined. For the stratum of 908, we took a simple
random sample of 119. We used the attribute appraisal program, RAT STATS 2007,
Version 2, to evaluate the statistical results of the simple random sample. We then
combined the results of the census stratum to yield summary statistics of the overall
population of reimbursements. We statistically projected four separate findings in this
report. For the findings with low error rates, we reported the upper bound on the error
rate at the 95 percent confidence level for a one-tail distribution.15 For the finding with a
higher error rate, we reported the point estimate of the error rate, along with the upper
and lower bounds of a two-tail confidence interval,16 at the 95 percent confidence level.
The following tables summarize the results of our findings.




15
   Under a one-tail confidence interval, either the upper bound or lower bound on the error rate is calculated, but not
both.
16
   Under a two-tail confidence interval, both the upper and lower bounds on the error rate are calculated.




                                                           8
Postal Service Officers’ Travel and Representation                                 FT-AR-09-006
 Expenses for Fiscal Year 2008




            Table 1. Statistical Projection (Upper Bound on the Error Rate)
                                     Number of
                                                                  Number of          One-Tailed Upper
                                  Reimbursements
                                                             Reimbursements with      Bound on Error
      Deviations from             with Problems in
                                                              Problems in Census          Rate at
        Guidelines                Random Sample
                                                                 Sample of 50           95 Percent
                                       of 119
                                                               Reimbursements        Confidence Level
                                  Reimbursements
   Written preauthorization
                                          2                          0                     4.7%
      was not obtained
   Spousal expenses were
                                          1                          0                     3.4%
     claimed in eTravel
   Government travel card
                                          3                          1                     5.9%
    was not always used


     Table 2. Statistical Projection (Upper and Lower Bound on the Error Rate
                                 with Point Estimate)
                        Number of             Number of           Two-tailed              Two-Tailed
                     Reimbursements        Reimbursements           Lower                   Upper
  Deviation from     with Problems in      with Problems in        Bound at     Point      Bound at
   Guidelines        Random Sample         Census Sample          95 Percent   Estimate   95 Percent
                          of 119                 of 50            Confidence              Confidence
                     Reimbursements        Reimbursements            Level                   Level
  Reimbursements
      were not
                              6                      1               2.1%          4.9%       9.8%
   submitted in a
   timely manner


Results

Written Preauthorization Not Obtained

Based on the sample results, we projected an upper limit of 4.7 percent. We are
95 percent confident that the number of reimbursements with these errors in the
population of 958 was not greater than 45.

Spousal Expenses Claimed in eTravel

Based on the sample results, we projected an upper limit of 3.4 percent. We are
95 percent confident that the number of reimbursements with these errors in the
population of 958 was not greater than 33.




                                                         9
Postal Service Officers’ Travel and Representation                  FT-AR-09-006
 Expenses for Fiscal Year 2008


Government Travel Card Not Always Used

Based on the sample results, we projected an upper limit of 5.9 percent. We are
95 percent confident the number of reimbursements with these errors in the population
of 958 was not greater than 57.

Reimbursements Not Submitted Timely

Based on the sample results, we projected a lower limit of 2.1 percent, a point estimate
of 4.9 percent, and an upper limit of 9.8 percent. We are 95 percent confident the
number of reimbursements with these errors in the population of 958 was between 28
and 94.




                                                     10
Postal Service Officers’ Travel and Representation        FT-AR-09-006
 Expenses for Fiscal Year 2008


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                     11
